Supreme Court, U.S.
FILED

DEC 2 0 2020

No. 20-6489

OFFICE OF THE CLERK

IN THE SUPREME COURT OF THE UNITED STATES
MARIO ALLAN MONTANO, Applicant,
v.

IVY ALICE WIMMER, Respondent.

EMERGENCY APPLICATION FOR A STAY OF EXECUTION PENDING THE
DISPOSITION OF THE PETITION FOR WRIT OF CERTIORARI

APPENDIX

!

Appendix A

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF OAKLAND
IVY ALICE WIMMER,
Petitioner,
v

Case No, 17-854298-PP
Hon. Kameshia D. Gant

MARIO ALLAN MONTANO,
Respondent.

OPINION AND ORDER
Background
On June 20, 2107, Mrs. Ivy Alice Wimmer ("Petitioner") filed a Petition for a
Domestic Relation Personal Protection Order (“Petition”) against Mario Allan Montano
(“Respondent"), After reviewing the Petition, the Court issued an ex-parte personal
protection order (“PPO”) against Respondent That Order was to remain in effect until
June 20, 2018. Since the date of issuance, the Court has extended said PPO four (4)
times. The last being on November 1, 2018, when upon stipulation of the parties, the
Court extended the PPO for the fourth time. Thus, said PPO will expire on November 1,
2020.

Since its issuance, the Respondent has violated the PPO two times, September 7,
2017, and April 24,2018. On November 1,2018, when counsel represented both parties,
the Court signed a stipulated order wherein the Respondent agreed to enter a no contest
plea to the first violation dated September 7,2017 (“Violation #1"). The Court held 10 (ten)
days in abeyance as punishment for any further violations. Based on the Court’s
acceptance of Respondent’s no contest plea to Violation #1, the Petitioner agreed to
withdraw the second violation dated April 24,2018 (“Violation #2). The plea bargain was
also contingent upon Respondent dismissing several Oakland County Circuit Court

Cases {Case No. .2018-166152-CZ, Case No. 2017-158684-CZ), as well as several Court
of Appeals Cases (Case Nos. 340996, 344436 and, 344765) within two (2) weeks of the
date of the order. If proof of dismissal were not received, Violation #2 would automatically
be reinstated. The parties further Stipulated to extend die PPO for .two (2) more years,
until November 1, 2020. Lastly, the Respondent agreed to follow the Michigan Court
Rules regarding filing motions with one exception; the Petitioner was on|y to be served
via the e-file system.
Despite having agreed to the terms of the plea agreement, the Respondent
immediately began filing motions. The following timeline outlines the series of events that;
occurred over the next few days;
• On November 7,2018; Respondent filed a Motion to Modify PPO.
• On November 8, 2018, an Order of Dismissal under Court of Appeals Case No.
344765 and 344456 were filed with this Court.
• On November 9, 2018, Respondent filed a Motion to Amend the Consent Order
and Agreement entered on November 1, 2018, and a Motion to Modify the PPO,
scheduling both motions for a hearing on November 14,2018;
•• Then, on November 13, 2018, Respondent filed a Notice of Hearing Cancellation
and Withdrawal of his Motion to Amended the Consent Agreement, as well as, his
Motion to Modify PPO.
Since 20.18, the Respondent has filed a voluminous amount of pleadings, the most
recent being a Notice Of Filing Application for Leave to Appeal, which was filed with this
Court on March 26,2020.
An examination of the court record reveais that since the inception Of this case are
over 1300 docket entries, almost entirely attributable to Respondent. Further review of
the record reflects over 75 motions and over 60 briefs filed by the Respondent of varying
lengths up to 97 pages. Of note, under the parties' companion case identified as Ivy Alice
Wimmer f/k/a Ivy Alice Montano v. Mario Allan Montano, Case No. 12-802216-DO
2

(“Divorce Action"), an examination of the court record reveals that from the time the
Consent Judgment of Divorce was entered on May 6,2013, there are over 1237 docket
entries, almost entirely attributable to the Defendant, in that case, Mario Montano. Further
examination of the record reflects over 242 motions filed by the Defendant, varying in
length up to 233 pages., A detailed description of their content and length would prove
too unwieldy for this Opinion since the defendant has routinely filed up to 6 motions per
week, virtually every week. As a result, this court issued an opinion dated November 14,
2019, under the Divorce Action. This is noteworthy as Respondent is not only filing
numerous pleadings in this case but he is.also filing various pleadings concurrently in the
Divorce Action as well.
This behavior is designed to force the Petitioner to prepare a response and expend
more costs.

Filing motions aren’t the only means that Respondent harasses the

Petitioner. Respondent’s litigation tactics include a significant number of miscellaneous
filings that also require attention by Petitioner, some with as many as 764 pages.
Respondent’s behavior in this case, is consistent with his behavior in the divorce
case, wherein the Court of Appeals held:
These consolidated appeals arise from defendant’s voluminous, and often
frivolous, post-divorce judgment motions. Docket Nos. 340339 and 340409
relate to defendant’s repeated attempts to argue that his spousal support
obligation is modifiable, despite the fact that the consent judgment of
divorce says that obligation is nonmodifiable. In Docket No. 340830,
defendant appeals the trial court’s order requiring him to pay attorney fees
and sanctions. In Docket No. 340996, defendant appeals the trial court’s
protective orders and an injunction imposing prefiling requirements on him.
We affirm. [1i
There is ample evidence presented to the trial court that the Respondent’s litigation
tactics were designed to annoy and burden the Petitioner. To date, four protective orders
have been entered over the preceding two years in an effort to reduce the number of
vexatious filings. However, the protective orders have failed to reduce the volume of

1 Warmerv Montano, unpublished per curiam opinion of the Court of Appeals, issued December 4,2018
(Docket Nos. 340339.340409,340830 and 340996), pi.

3

filings by the defendant. The Respondent has continued his vexatious filings undeterred.
In fact just recently, Mr. Montano filed a Complaint for Superintending Control with the
Court of Appeals, which was rejected on April 21, 2020.
A court may assess costs and attorney fees against a party as a sanction for
bringing a frivolous claim. MCR 1.109(E)(7); MCL 2.625(A)(2); MCL 600.2591(1). A civil
action is frivolous if any of the following conditions exist
(i)

The party's primary purpose in initiating the action or asserting the defense
was to harass, embarrass, or injure the prevailing party,

(ii>

The party had no reasonable basis to believe that the facts underlying that
party’s legal position were in fact true.

(iii)

The party’s legal position was devoid of arguable legal merit. [MCL
600.2591 (3)(a)(i)-(iii).] Wimmerv Montano, unpublished per curiam opinion
of The Court of Appeals, issued (December 4,2018) (Docket Nos. 340339,
340409,340830 and 340996), p 5.

In domestic relations cases, “[a] party may, at any time, request that the court order
the other party to pay ail or part of the attorney fees and expenses related to the action
or a specific proceeding, including a post-judgment proceeding.” MCR 3.206(D)(1).
The decision to require security is a matter within the sound discretion of the trial
court...Betfiori v Aitis-Chalmers, Inc, 107 Mich App 595, 599-600 (1981). The assertion
of groundless allegations or a tenuous legal theory of liability may provide sufficient
reason for ordering security to be posted. Wells v FruehaufCorp., 170 Mich App 326,335
(1988), see also Halt v Harmony Hills Recreation, Inc., 186 Mich App 265 (1990).
There must be a substantial reason for imposing security. In re Surety Bond for
Costs, 226 Mich App 321 (1997). “A ‘substantial reason' for requiring security may exist
where there is a tenuous legal theory of liability,’ or where there is good reason to believe
that a party's allegations are ‘groundless and unwarranted’ “Id. at 331-332 (citation
omitted).
4

“(EJven onerous conditions" may be imposed upon a litigant as long as they/are
designed to assist the district.court in curbing die particular abusive behavior involved.
Carter v United States, 733 F.2d 735, 737 (10th Cir. 1984), cert denied, 469 US 1161
(1985) (quoting in re Green, 669 F.2d 779, 7896 (D.C.Cir.1981)). In sum, the right of
access to the courts is neither absolute nor unconditional, In reiGreen, 669 F;2d at 785,
and there is no constitutional right of access to the courts to prosecute an action that is
frivolous or malicious. Phillips v. Carey, 638 F.2d 207,.208 (10th Cir:), cert denied, 450
U.S. 985 (1981).This Court has the authority to sua sponte or on motion require the
posting of bond as security for costs. Zapalski v.Benion, 178 Mich App 398,404 (1989).
The Respondent;apparently resides in the state of South Carolina and has rarely
attended court proceedings, insisting on being given remote access through the “Judge
Online" service which has resulted in additional costs to the plaintiff: Further, defendant
has demonstrated , a willful disregard for this court and the Michigan Court of Appeals.
Despite the best efforts of this court the defendant’svexatious, duplicative.and frivolous
litigation tactics have continued unabated.
ORDER
Based on the foregoing Opinion,
(1

Respondent shall be required to file a surety bond with the Oakland CountyJ

("Clerk’s Offi^loroostelnthe amount~bir$2.500 for each motion, objection, or 1
CIsnyotherpleadingfiled withthisCourt, tocoverall costsandother recoverable
(^expense^ thatlhay'be~awarded'tiy'the~trial courtrtH^surety'bdrid fdrcosts)
(shall be returned to.defendant should .he. prevail on the.filing at.issue. Failure1
(jto/ile the.surety.bond.for costs shall.result in theproposed filingbeing rejected)
(e^unfiledr)
(2) the Respondent is require to attend all motion hearings ordered by this Court
as a result of Respondent's filings and shall not be permitted the previously
discretionary use of-Judge Online”

5

(3) the Respondent is no longer permitted to contact the Judge’s chambers or the
clerk's office via the telephone to either reject, withdraw or rescind his motion.
fi

May 11,2020
Date

t
HON. KAMESHIA D. GANT,
CIRCUIT COURT JUDGE

•'•V

$

Appendix B

Court of Appeals, State of Michigan
ORDER

Ivy Alice Wimmer v Mario Allan Montano
Docket No.

353685

LC No.

2012-802216-DO

Christopher M. Murray, Chief Judge, acting under MCR 7.201(BX3), orders:
The application for leave to appeal is DISMISSED for failure to pursue the case in
conformity with tire rules. MCR 7.201(B)(3) and 7.216(A)(10). Defendant has failed to correct the defect
in this filing by paying to the Clerk of the Court the $375 entry fee. Dismissal is without prejudice to
whatever other relief may be available consistent with the Court Rules.
On its own motion pursuant to MCR 7.216(C)(1), the Court ASSESSES SANCTIONS on
the basis that defendant's appeal is frivolous and vexatious. Defendant Mario Allan Montano is ordered
to pay sanctions in the amount of $750.00 to the Clerk of this Court within 28 days of the Clerk's
certification of this order. The Clerk of the Court is ordered to return without accepting any further filings
by, or on behalf of, Mario Allan Montano in any non-criminal matter until he has made the payment
required by this order. MCR 7.216(A)(7).

V?i
/

}

y

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

M

TO

JUL 1 4 2020
Date

a

Appendix C

Court of Appeals, State of Michigan
ORDER

Ivy Alice Wimmer v Mario Allan Montano
Docket No.

353753

LC No.

2012-802216-DO

Christopher M. Murray, Chief Judge, acting under MCR 7.201(B)(3), orders;
The application for leave to appeal is DISMISSED for failure to pursue the case in
conformity with the rules. MCR 7.201 (B)(3) and 7.216(A)( 10). Defendant has failed to correct the defect
in this filing by paying to the Clerk of the Court the $1,125 entry fee. Dismissal is without prejudice to
whatever other relief may be available consistent with the Court Rules.
On its own motion pursuant to MCR 7.216(C)(1), the Court ASSESSES SANCTIONS on
the basis that defendant's appeal is frivolous and vexatious. Defendant Mario Allan Montano is ordered
to pay sanctions in the amount of $750.00 to the Clerk of this Court within 28 days of the Clerk's
certification of this order. The Clerk of the Court is ordered to return without accepting any further filings
by, or on behalf of, Mario Allan Montano in any non-criminal matter until he has made the payment
required by this order. MCR 7.216(A)(7).

)/}

,
y

I ,
S7

£7

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

IV

JUl t 4 2020
Date

Appendix D

Court of Appeals, State of Michigan
ORDER

IAW v MAM
Docket No.

353820

LC No.

2017-854298-PP

Christopher M. Murray, Chief Judge, acting under MCR 7.201(B)(3), orders:
The application for leave to appeal is DISMISSED for failure to pursue the case in
conformity with the rules. MCR 7.201 (B)(3) and 7.216(A)(10). Defendant has failed to correct the defect
in this filing by paying to the Clerk of the Court the $375 entry fee. Dismissal is without prejudice to
whatever other relief may be available consistent with the Court Rules.
On its own motion pursuant to MCR 7.216(C)(1), the Court ASSESSES SANCTIONS on
the basis that defendant's appeal is frivolous and vexatious. Defendant Mario Allan Montano is ordered
to pay sanctions in the amount of $750.00 to the Clerk of this Court within 28 days of the Clerk's
certification of this order. The Clerk of the Court is ordered to return without accepting any further filings
by, or on behalf of, Mario Allan Montano in any non-criminal matter until he has made the payment
required by this order. MCR 7.216(A)(7).

9

V b/A
J ,

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

JUL 1 4 20211
Date

Appendix E

Order

Michigan Supreme Court
Lansing, Michigan

October 5, 2020

Bridget M. McCormack,
Chief Justice
David F. Viviano,
Chief justice Pro Tem

161466
161645

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,
Justices

IVY ALICE WIMMER,
Plaintiff-Appellee,

SC: 161466, 161645
COA: 353685
Oakland CC: 2012-802216-DO
MARIO ALLAN MONTANO,
Defendant-Appellant!

On order of the Chief Justice, the interlocutory application and the application for
leave to appeal are administratively dismissed for the failure of defendant-appellant to
pay the outstanding fees. The clerk of the Court shall not to accept further filings from
the defendant-appellant in any civil matter until the sanctions ordered by this Court in
No. 161152, IW v MM ($500.00) and No. 161299, Montano v Court of Appeals
($1,000.00) are paid in full.

a s
3
♦

't

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
October 5,2020
Clerk

Appendix F

Order

Michigan Supreme Court
Lansing, Michigan

October 5, 2020

Bridget M. McCormack,
Chief Justice
David F. Viviano,
Chief Justice Pro Tem

161471
161666

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,
Justices

IVY ALICE WIMMER,
Plaintiff-Appellee,

SC: 161471, 161666
COA: 353753
Oakland CC: 2012-802216-DO
MARIO ALLAN MONTANO,
Defendant-Appellant.

On order of the Chief Justice, the interlocutory application and the application for
leave to appeal are administratively dismissed for the failure of defendant-appellant to
pay the outstanding fees. The clerk of the Court shall not to accept further filings from
the defendant-appellant in any civil matter until the sanctions ordered by this Court in
No. 161152, IW v MM ($500.00) and No. 161299, Montano v Court of Appeals
($1,000.00) are paid in full.

ma
$

$

1, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
October 5, 2020
Clerk

Appendix G

Order

Michigan Supreme Court
Lansing, Michigan

October 5, 2020

Bridget M. McCormack,
Chief Justice

David F. Viviano,
Chief Justice Pro Tem

161473
161668

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,

IAW,
Plaintiff-Appellee,

Justices

SC: 161473, 161668
COA: 353820
Oakland CC: 2017-854298-PP
MAM,
Defendant-Appellant.

On order of the Chief Justice, the application for leave to appeal is
administratively dismissed for the failure of plaintiff-appellant to pay the outstanding
fees. The clerk of the Court shall not to accept further filings from the plaintiff-appellant
in any civil matter until the sanctions ordered by this Court in No. 161152, IW v MM
($500.00) and No. 161299, Montano v Court ofAppeals ($1,000.00) are paid in full.

*1

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
October 5, 2020
Clerk

Appendix H

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF OAKLAND
FAMILY DIVISION
IVY ALICE WIMMER,
Petitioner,

Case: 2017-854298-PP
Hon. Kameshia D. Gant

-vsMARIO ALLAN MONTANO,
Respondent.

RESPONDENT’S VERIFIED MOTION FOR AN EX PARTE ORDER TO
STAY EXECUTION PENDING DISPOSITION BY THE
SUPREME COURT OF THE UNITED STATES
NOW COMES the Respondent, MARIO ALLAN MONTANO for his Respondent’s
Verified Motion for an Ex Parte Order to Stay Execution Pending Disposition by the Supreme
Court of the United States states as follows:
1. The Respondent seeks an ex parte order staying the execution of the Court’s order issued
on May 11, 2020 requiring the Respondent to purchase and file a $2500 surety bond in
order to file motions, objections and pleadings with this Court (“Bond Order”) pending
4-.

the filing and disposition of an appeal with the Supreme Court of the United States.
2. Specifically, the Respondent seeks the issuance and entry of the ex parte order staying the

3

o
O
S3
O

U

Bond Order (“Stay Order”) presented in Exhibit A.
3. Provisions in MCR 3.207 and MCR 7.209(E) provide this Court jurisdiction to issue the
Stay Order based on meeting the expectations of the provisions.

'B
VO
3

o
O

”3

G
03

4. The Respondent appealed this Court’s Bond Order initiating the application case of

o

Wimmer v. Montano1 (“COA 353820”) with the Michigan Court of Appeals (“COA”) on

o

June 15, 2020.

£
ui-r

a
1

■o

Wimmerv. Montano, 353820 (Mich. Ct. App. July 14, 2020).

<D

£

e

XI
3

V)
”c

o

£

3
O

o

WHEREFORE the Respondent, MARIO ALLAN MONTANO requests this Honorable
Court to:
A. Enter an order granting this motion.
B. Enter an ex parte order to stay the execution of the bond order pending the docketing and
disposition of a Petition for Writ of Certiorari with SCOTUS using or based on the order
presented in Exhibit A.
C. Grant the Respondent any other relief this Court deems appropriate.

a
6
u
3

U

U
■B
r-* 1

3

O

O
T3
C

.5

oj

o

o
an

.5

E
t-i

a

■o

1)

£
6

s

X)

3

in

<L>

s

o
o

Appendix I

/

(Morion Filed with Court) MISCELLANEOUS
Respondent's Motion for

Montano, Mario (Pro Per)

Mario Montano

11/23/2020 at 01:10:52 PM Rejected

an ex Parte Stay Pending
SCCfTUS Review
C. E. Ferris: Other:please file a bond in the amount of S2S00 per opn and ord filed on 5/12/20, thanks, ce (24761451)

Status Updates

Service Recipients / Status

Status

Date

Comments

Rejected

11/23/2020 03:16:09
PM

C. E. Ferris: Other:piease file a bond in the amount of $2500 per opn and ord filed on
5/12/20, thanks, ce (24761451)

Paid

11/23/2020 01:13:06
PM

INFO: Payment Accepted. Orderld:, Tracking Id: cac8c3ba-8c80-4067-b5e2-78e690834bf0.

Accepted

11/23/2020 01:13:05
PM

Pending Payment: Filing has not been reviewed, accepted or filed by the clerk and should
not be considered filed at this time (24761451)

In Progress

11/23/2020 01:10:56
PM

Your filing (MISCELLANEOUS) has been received by the court Tracking ID: 62769382-38544f83-b77d-15Gef07faa0b

Submitted

11/23/2020 01:10:52
PM

Submitted to the court by Mario Montano (Pro Per)

Original Filing Id: 62769382-3854-4f83-b77d-150ef07faa0b

Payment Receipt

Appendix J

MICHIGAN COURT OF APPEALS
IVY ALICE WIMMER,
Plaintiff-Appellee,

COA. 353685
Hon. Christopher M. Murray

v.

6th Judicial Circuit (Oakland County)
Trial Ct. No: 2012-802216-DO
Hon. Kameshia D. Gant

MARIO ALLAN MONTANO,
Defendant-Appellant.

MOTION TO STAY THE EXECUTION OF THIS COURT’S
ORDER PENDING DISPOSITION OF A PETITION FOR WRIT
OF CERTIORARI
NOW COMES the Defendant-Appellant, MARIO ALLAN MONTANO for his Motion
to Stay the Execution of this Court’s Order Pending Disposition of a Petition for Writ of Certiorari
states as follows:
1. This Court has jurisdiction to issue a stay a stay of proceedings of its orders and judgments
pending an appeal as it deems just pursuant to MCR 7.209(H)(2).
2. Chief Justice Bridget McCormack of the Michigan Supreme Court (“MSC”) issued an
order in the case of Wimmer v. Montano1 (“MSC 161121”) on March 18, 2020 (Exhibit
A).
3. Chief Justice McCormack granted the Defendant-Appellant (“Defendant”) a waiver of
fees in MSC 161121.
4. Chief Justice McCormack determined that the Defendant was too poor to pay motion fees
of $75 in MSC 161121 based on her order.
5. This Court issued an order dismissing this case (“COA Dismissal”) on July 14, 2020
(Exhibit B).

O
M
<

tn

a

o
o

>

to
to
to

o
to

4^

1 Wimmerv. Montano, 161121 (Mich. May 26, 2020).

-o
4^

to

T3

16. Justice requires that this Court issue a stay of execution of the COA Dismissal pending the
disposition of the Petition for Writ Certiorari pursuant to MCR 7.209(H)(2).
WHEREFORE the Defendant-Appellant, MARIO ALLAN MONTANO hereby requests this
Honorable Court to:
A. Enter an order granting this motion.
B. Enter an order to stay the execution of the COA Dismissal pending disposition of the
Petition for Writ of Certiorari.
C. Grant the Defendant-Appellant any other relief this Court deems appropriate.

I declare that the statements above are true to the best of my information, knowledge and
belief.

/s/WtfmMan MerA-cmo
Dated: December 7. 2020
Mario Allan Montano
Defendant-Appel 1 ant

w
o
w
<

trj

O

cr
v:

£

O

o
>

to
-J

to

o
to
o
3

to
4^

-o

4^

to

s

Appendix K

MICHIGAN COURT OF APPEALS
IVY ALICE WIMMER,
Plaintiff-Appellee,

COA. 353753
Hon. Christopher M. Murray

v.

6th Judicial Circuit (Oakland County)
Trial Ct. No: 2012-802216-DO
Hon. Kameshia D. Gant

MARIO ALLAN MONTANO.
Defendant-Appe 1 lant.

MOTION TO STAY THE EXECUTION OF THIS COURT’S
ORDER PENDING DISPOSITION OF A PETITION FOR WRIT
OF CERTIORARI
NOW COMES the Defendant-Appellant, MARIO ALLAN MONTANO for his Motion
to Stay the Execution of this Court’s Order Pending Disposition of a Petition for Writ of Certiorari
states as follows:
1. This Court has jurisdiction to issue a stay a stay of proceedings of its orders and judgments
pending an appeal as it deems just pursuant to MCR 7.209(H)(2).
2. Chief Justice Bridget McCormack of the Michigan Supreme Court (“MSC”) issued an
order in the case of Wimmer v. Montano1 (“MSC 161121”) on March 18, 2020 (Exhibit
A).
3. Chief Justice McCormack granted the Defendant-Appellant (“Defendant”) a waiver of
fees in MSC 161121.
4. Chief Justice McCormack determined that the Defendant was too poor to pay motion fees
of $75 in MSC 161121 based on her order.
5. This Court issued an order dismissing this case (“COA Dismissal”) on July 14, 2020
(Exhibit B).

pd
W
O

tn
<

frj

O
cr

so
o
>

to
~o
to

o
to
o
o
to

1 Wimmerv. Montano, 161121 (Mich. May 26, 2020).

-o

£

] 6. Justice requires that this Court issue a stay of execution of the COA Dismissal pending the
disposition of the Petition for Writ Certiorari pursuant to MCR 7.209(H)(2).
WHEREFORE the Defendant-Appellant, MARIO ALLAN MONTANO hereby requests this
Honorable Court to:
A. Enter an order granting this motion.
B. Enter an order to stay the execution of the COA Dismissal pending disposition of the
Petition for Writ of Certiorari.
C. Grant the Defendant-Appellant any other relief this Court deems appropriate.

1 declare that the statements above are true to the best of my information, knowledge and
belief

Dated: December 7. 2020
Mario Allan Montano
Defendant-Appellant

pd

cn

O
W
>...
<

frj

o
cr

'<

so

o
>

to
r-j
to

o
to
o

L,J

3

to
*-d

Appendix L

almontano29582@gmail.com
From:
Sent:
To:
Subject:

info@truefiling.com
Monday, December 7, 2020 2:00 PM
almontano29582@gmail.com
MiFILE: Filing Rejected Notification - Ml Court of Appeals Case No. 353685

The Michigan Court of Appeals has rejected your document filed into Case No. 353685, IVY ALICE WIMMERV MARIO
ALLAN MONTANO.
Filing Details
Rejection Reason: The filing was rejected because this file is currently closed and sanctions have not been paid
Document Type: Motion - Regular
Filing Name: Motion for a Stay Pending SCOTUS Disposition
Filed By: Montano, Mario (Pro Se)
From: Mario Montano
You should contact the Court if you need further explanation.
*****This e-mail was sent from an unattended e-mail mailbox. Replies to this e-mail will be rejected.

*****

MiFILE is the Michigan judiciary's electronic-filing system for filing and serving documents online. This system is available 24 hours a day, 7 days a week.
Home page: https://mifile.courts.michigan.gov/
CONFIDENTIALITY NOTICE: This message and any associated documents have been sent via MiFILE and may contain confidential information. The information is intended for
individuals or legally defined interested persons associated with the case to which this message applies. Any individual not associated with the case is prohibited from
disseminating, distributing, or copying this message or any associated documents, downloading the associated documents, or taking any action on the contents of this message
or any associated documents. If you have received this communication in error, please delete the message immediately. Thank you.

1

Appendix M

almontano29582@gmail.com
From:
Sent:
To:
Subject:

info@truefiling.com
Monday, December 7, 2020 2:01 PM
almontano29582@gmail.com
MiFILE: Filing Rejected Notification - Ml Court of Appeals Case No. 353753

The Michigan Court of Appeals has rejected your document filed into Case No. 353753, IVY ALICE WIMMER V MARIO
ALLAN MONTANO.
Filing Details
Rejection Reason: The filing was rejected because this case is currently closed and sanctions have not been paid
Document Type: Motion - Regular
Filing Name: Motion for a Stay Pending SCOTUS Disposition
Filed By: Montano, Mario (Pro Se)
From: Mario Montano
You should contact the Court if you need further explanation.
**** •This e-mail was sent from an unattended e-mail mailbox. Replies to this e-mail will be rejected. *****
MiFILE is the Michigan judiciary's electronic-filing system for filing and serving documents online. This system is available 24 hours a day, 7 days a week.
Home page: https://mifile.courts.michigan.gov/
CONFIDENTIALITY NOTICE: This message and any associated documents have been sent via MiFILE and may contain confidential information. The information is intended for
individuals or legally defined interested persons associated with the case to which this message applies. Any individual not associated with the case is prohibited from
disseminating, distributing, or copying this message or any associated documents, downloading the associated documents, or taking any action on the contents of this message
or any associated documents. If you have received this communication in error, please delete the message immediately. Thank you.

1

Appendix N

MICHIGAN SUPREME COURT

S

n
W

IVY ALICE WIMMER,
Plaintiff-Appellee,

MSC: 161466, 161645
Hon. Bridget M. McCormack

<

v.

COA. 353685
Hon. Christopher M. Murray

cr
V!

MARIO ALLAN MONTANO,
Defendant-Appel lant.

6th Judicial Circuit (Oakland County)
Trial Ct. No: 2012-802216-DO
Hon. Kameshia D. Gant

MOTION TO STAY THE EXECUTION OF THIS COURT’S
ORDER PENDING DISPOSITION OF A PETITION FOR WRIT
OF CERTIORARI
NOW COMES the Defendant-Appellant, MARIO ALLAN MONTANO for his Motion
to Stay the Execution of this Court’s Order Pending Disposition of a Petition for Writ of Certiorari
states as follows:
1. MCR 7.305(1) states that the provisions in MCR 7.209 regarding a stay of execution apply
to this Court.
2. MCR 7.209(D) as applied to this Court gives this Court jurisdiction to stay the orders of
the Michigan Court of Appeals (“COA”) on terms it deems just.
3. MCR 7.209(H)(2) as applied to this Court gives this Court jurisdiction to stay any judgment
or order of a lower court and its own orders on terms it deems just.
4. This Court issued an order in MSC 161121 granting the Defendant-Appellant
(“Defendant”) a fee waiver on March 18, 2020.
5. This Court determined the Defendant was too poor to afford motion fees of $75 or more
on March 18, 2020.
6. The Defendant’s financial situation has declined since March 18, 2020 and he still can’t
afford court fees of $75 or higher.

1—<

w

o
2

00

O
to
oo
to

o
to
o
to

o
sO

>

£

WHEREFORE the Defendant-Appellant, MARIO ALLAN MONTANO hereby requests

gn

this Honorable Court to:

ffl
<
M
1—i

A. Enter an order granting this motion.

d

cr

B. Enter an order to stay the execution of the MSC Dismissal pending the Disposition of the
Petition for Writ of Certiorari with SCOTUS.

oo

n

C. Enter an order to stay the execution of the COA Dismissal pending the Disposition of the

to
oo

Petition for Writ of Certiorari with SCOTUS.

to
o

to

D. Grant the Defendant-Appellant any other relief this Court deems appropriate.

O

■'O

to
I declare that the statements above are true to the best of my information, knowledge and

o
vO

belief

>
%

/s/Mafw frliav\ Montand
Dated: December 8. 2020
Mario Allan Montano
Defendant-Appellant

5

r

Appendix O

MICHIGAN SUPREME COURT
IVY ALICE WIMMER,
Plaintiff-Appellee,

MSC: 161471,161666
Hon. Bridget M. McCormack

v.

COA. 353753
Hon. Christopher M. Murray

MARIO ALLAN MONTANO,
Defendant-Appellant.

6th Judicial Circuit (Oakland County)
Trial Ct. No: 2012-802216-DO
Hon. Kameshia D. Gant

MOTION TO STAY THE EXECUTION OF THIS COURT’S
ORDER PENDING DISPOSITION OF A PETITION FOR WRIT
OF CERTIORARI

O
W
<

w

o

a*
00

n
to
oo
to
o
to
o
■o
ON

NOW COMES the Defendant-Appellant, MARIO ALLAN MONTANO for his Motion
to Stay the Execution of this Court’s Order Pending Disposition of a Petition for Writ of Certiorari
states as follows:
1. MCR 7.305(1) states that the provisions in MCR 7.209 regarding a stay of execution apply
to this Court.
2. MCR 7.209(D) as applied to this Court gives this Court jurisdiction to stay the orders of
the Michigan Court of Appeals (“COA”) on terms it deems just.
3. MCR 7.209(H)(2) as applied to this Court gives this Court jurisdiction to stay any judgment
or order of a lower court and its own orders on terms it deems just.
4. This Court issued an order in MSC 161121 granting the Defendant-Appellant
(“Defendant”) a fee waiver on March 18, 2020.
5. This Court determined the Defendant was too poor to afford motion fees of $75 or more
on March 18, 2020.
6. The Defendant’s financial situation has declined since March 18, 2020 and he still can’t
afford court fees of $75 or higher.

-o
>

s

WHEREFORE the Defendant-Appellant, MARIO ALLAN MONTANO hereby requests

ffl
O
ffl
h—<

this Honorable Court to:

<

A. Enter an order granting this motion.

w

B. Enter an order to stay the execution of the MSC Dismissal pending the Disposition of the

o

cr

vi

s

Petition for Writ of Certiorari with SCOTUS.

CO

C. Enter an order to stay the execution of the COA Dismissal pending the Disposition of the

O
to
oo

Petition for Writ of Certiorari with SCOTUS.

to

D. Grant the Defendant-Appellant any other relief this Court deems appropriate.

o
to
o
no

/ declare that the statements above are true to the best of my information, knowledge and

ON

-O

belief.

>.

£
Dated: December 8. 2020
Mario Allan Montano
Defendant-Appellant

5

Appendix P

almontano29582@gmail.com
From:
Sent:
To:
Subject:

info@truefiling.com
Tuesday, December 8, 2020 9:29 AM
almontano29582@gmail.com
MiFILE: Filing Rejected Notification - Ml Supreme Court Case No. 161466

The Michigan Supreme Court has rejected your document filed into Case No. 161466, IVY ALICE WIMMER V MARIO
ALLAN MONTANO.
Filing Details
Rejection Reason: The MSC Clerk's Office rejected this bundle for the reasons stated in the Court's 10-05-2020 order.
Moreover, the case is closed; no further filings will be accepted.
Document Type: Motion - Regular
Filing Name: Motion for a Stay Pending SCOTUS Disposition
Filed By: Montano, Mario (Pro Se)
From: Mario Montano
You should contact the Court if you need further explanation.
*****This e-mail was sent from an unattended e-mail mailbox. Replies to this e-mail will be rejected.

*****

MiFILE is the Michigan judiciary's electronic-filing system for filing and serving documents online. This system is available 24 hours a day, 7 days a week.
Home page: https://mifile.courts.michigan.gov/
CONFIDENTIALITY NOTICE: This message and any associated documents have been sent via MiFILE and may contain confidential information. The information is intended for
individuals or legally defined interested persons associated with the case to which this message applies. Any individual not associated with the case is prohibited from
disseminating, distributing, or copying this message or any associated documents, downloading the associated documents, or taking any action on the contents of this message
or any associated documents. If you have received this communication in error, please delete the message immediately. Thank you.

1

Appendix Q

almontano29582@gmail.com
From:
Sent:
To:
Subject:

info@truefiling.com
Tuesday, December 8, 2020 10:21 AM
almontano29582@gmail.com
MiFILE: Filing Rejected Notification - Ml Supreme Court Case No. 161471

The Michigan Supreme Court has rejected your document filed into Case No. 161471, IVY ALICE WIMMER V MARIO
ALLAN MONTANO.
Filing Details
Rejection Reason: The MSC Clerk's Office rejected this bundle for the reasons stated in the Court's 10-05-2020 order.
Moreover, the case is closed; no further filings will be accepted.
Document Type: Motion - Regular
Filing Name: Motion for a Stay Pending SCOTUS Disposition
Filed By: Montano, Mario (Pro Se)
From: Mario Montano
You should contact the Court if you need further explanation.
**** •This e-mail was sent from an unattended e-mail mailbox. Replies to this e-mail will be rejected. *****
MiFILE is the Michigan judiciary's electronic-filing system for filing and serving documents online. This system is available 24 hours a day, 7 days a week.
Home page: https://mifile.courts.michigan.gov/
CONFIDENTIALITY NOTICE: This message and any associated documents have been sent via MiFILE and may contain confidential information. The information is intended for
individuals or legally defined interested persons associated with the case to which this message applies. Any individual not associated with the case is prohibited from
disseminating, distributing, or copying this message or any associated documents, downloading the associated documents, or taking any action on the contents of this message
or any associated documents. If you have received this communication in error, please delete the message immediately. Thank you.

1

Appendix R

MICHIGAN COURT OF APPEALS
IVY ALICE WIMMER,
Petitioner-Appellee,

COA. 353820
Hon. Christopher M. Murray

v.

6th Judicial Circuit (Oakland County)
Trial Ct. No: 2017-854298-PP
Hon. Kameshia D. Gant

MARIO ALLAN MONTANO,
Respondent-Appel 1 ant.

MOTION TO STAY THE EXECUTION OF THIS COURT’S
ORDER PENDING DISPOSITION OF A PETITION FOR WRIT
OF CERTIORARI
NOW COMES the Respondent-Appellant, MARIO ALLAN MONTANO for his Motion
to Stay the Execution of this Court’s Order Pending Disposition of a Petition for Writ of Certiorari
states as follows:
1. This Court has jurisdiction to issue a stay a stay of proceedings of its orders and judgments
pending an appeal as it deems just pursuant to MCR 7.209(H)(2).
2. The Honorable Kameshia D. Gant (“Trial Court”) was assigned to the case of Wimmer v.
Montano1 (“Trial Case”) on May 4, 2019.

pa

tn

3. The Trial Court issued a sua sponte Opinion and Order (“Opinion”) on May 11, 2020
(Exhibit A).
4. The Opinion states that the Respondent must purchase a surety bond in the amount of
$2,500 and file the bond with each motion, objection and pleading he files with the Trial
Court where failure to do so results in the rejection of his filing (“Bond Order”).2
5. The Respondent appealed the Bond Order initiating the application of Wimmer v. Montano3
(“this case”) with the Michigan Court of Appeals (“COA”) on June 15, 2020.

1 Wimmer V. Montano, 2017-854298-PP (6th Mich. Cir. Ct. June 20, 2017).
2 Exhibit Bat 5 H1.

3 Wimmerv. Montano, 353820 (Mich. ct. App. July 14, 2020).

a
<

W

o

cr

'C

o
o
>

to
oo
to
o
to
o
On
-P*.

~o
”d

S'

16. The Respondent has been deprived of any ability to litigate the Trial, file an appeal with
the COA or file any document with the COA in an existing case to defend himself.
17. The Respondent sought a stay of the bond order with the Trial Court but his motion for the
stay was rejected because he did not post the $2500 bond (Exhibit D)
18. The Bond Order and the COA Dismissal are not yet final orders since SCOTUS has
discretionary review over the orders.
19. The Respondent has been deprived of any ability to litigate his Trial Case and all cases in
the COS are orders that are not yet final.
20. This is an extreme deprivation of justice against the Respondent.
21. Justice requires that this Court issue a stay of execution of the Bond Order and the COA
Dismissal pending the disposition of the Petition for Writ Certiorari pursuant to MCR
7.209(H)(2).
WHEREFORE the Respondent-Appellant, MARIO ALLAN MONTANO hereby requests
this Honorable Court to:

7*.
rn

A. Enter an order granting this motion.
B. (Eiter an order to stay the execution of the COA Dismissal 'pending disposition;<#%!)

o
tn
<

tn

o

fletilohWWiff^

C. (Bifeflan order to stay the execution of the Bond Order gadding diSpbsilon offfigT^Mon;

'C

s

n

ioFWrifbfCertibrarD

o

D. Grant the Respondent-Appellant any other relief this Court deems appropriate.

>
to

3

oo
to
o
to
o
o\
u>
4^

-o

£

/ declare that the statements above are true to the best of my information, knowledge and
belief.

Dated: December 18. 2020
Mario Allan Montano
Respondent-Appellant

pn

n
w
....
<

Fd

O

cr

o

o
>
CO

to
o
KJ
O

Os

4

us
4^
U)
"--4

T3

Appendix S

almontano29582@gmail.com
From:
Sent:
To:
Subject:

info@truefiling.com
Saturday, December 19, 2020 12:16 PM
almontano29582@gmail.com
MiFILE: Filing Rejected Notification - Ml Court of Appeals Case No. 353820

The Michigan Court of Appeals has rejected your document filed into Case No. 353820, IAW V MAM.
Filing Details
Rejection Reason: The filing was rejected because filer is prohibited by Court order from filing in any non-criminal
appeal until outstanding costs are paid.
Document Type: Motion - Regular
Filing Name: Motion for a Stay Pending SCOTUS Disposition
Filed By: Montano, Mario (Pro Se)
From: Mario Montano
You should contact the Court if you need further explanation.
**** •This e-mail was sent from an unattended e-mail mailbox. Replies to this e-mail will be rejected. *****
MiFILE is the Michigan judiciary's electronic-filing system for filing and serving documents online. This system is available 24 hours a day, 7 days a week.
Home page: https://mifile.courts.michigan.gov/
CONFIDENTIALITY NOTICE: This message and any associated documents have been sent via MiFILE and may contain confidential information. The information is intended for
individuals or legally defined interested persons associated with the case to which this message applies. Any individual not associated with the case is prohibited from
disseminating, distributing, or copying this message or any associated documents, downloading the associated documents, or taking any action on the contents of this message
or any associated documents. If you have received this communication in error, please delete the message immediately. Thank you.

1

Appendix T

MICHIGAN SUPREME COURT
IVY ALICE WIMMER,
Petitioner-Appellee,

MSC: 161473,161668
Hon. Bridget M. McCormack

MARIO ALLAN MONTANO,
Respondent-Appel lant.

h—«n

<

W
COA: 353820
Hon. Christopher M. Murray

V.

£

o

6th Judicial Circuit (Oakland County)
Trial Ct. No: 2017-854298-PP
Hon. Kameshia D. Gant

MOTION TO STAY THE EXECUTION ORDERS PENDING
DISPOSITION OF A PETITION FOR WRIT OF CERTIORARI

o

cr

s

00

n
to
VO

to

o
to
o

NOW COMES the Respondent-Appellant, MARIO ALLAN MONTANO for his Motion
to Stay the Execution of Orders Pending Disposition of a Petition for Writ of Certiorari states as
follows:
1. This Court has jurisdiction to issue a stay a stay of proceedings of its orders and judgments
pending an appeal as it deems just pursuant to MCR 7.305(1) and MCR 7.209(H)(2).
2. The Honorable Kameshia D. Gant (“Trial Court”) was assigned to the case of Wimmer v.
Montano1 (“Trial Case”) on May 4, 2019.
3. The Trial Court issued a sua sponte Opinion and Order (“Opinion”) on May 11, 2020
(Exhibit A).
4. The Opinion states that the Respondent must purchase a surety bond in the amount of
$2,500 and file the bond with each motion, objection and pleading he files with the Trial
Court where failure to do so results in the rejection of his filing (“Bond Order”).2

1 Wimmer V. Montano, 2017-854298-PP (6 th Mich. Cir. Ct. June 20, 2017).
2 Exhibit Bat 5111.

4^

u>

2

WHEREFORE the Respondent-Appellant, MARIO ALLAN MONTANO hereby requests

£

o

this Honorable Court to:

h—-

<
W

A. Enter an order granting this motion.
B. Enter an order to stay the execution of the MSC Dismissal pending disposition of the

o

cr

S'

Petition for Writ of Certiorari.

GO

C. Enter an order to stay the execution of the COA Dismissal pending disposition of the
Petition for Writ of Certiorari.

O
to
<0

to
D. Enter an order to stay the execution of the Bond Order pending disposition of the Petition

o
to
o

for Writ of Certiorari.
CO

4^

E. Grant the Respondent-Appellant any other relief this Court deems appropriate.
I declare that the statements above are true to the best of my information, knowledge and
belief.

/s/Wario frllan Montano

Dated: December 19, 2020

Mario Allan Montano
Respondent-Appel lant

4

s

Appendix U
i

almontano29582@gmail.com
From:
Sent:
To:
Subject:

info@truefiling.com
Saturday, December 19, 2020 2:30 PM
almontano29582@gmail.com
MiFILE: Filing Rejected Notification - Ml Supreme Court Case No. 161473

The Michigan Supreme Court has rejected your document filed into Case No. 161473, IAW V MAM.
Filing Details
Rejection Reason: The filing was rejected because filer did not pay motion fee.
Document Type: Motion - Regular
Filing Name: Motion for a Stay Pending SCOTUS Disposition
Filed By: Montano, Mario (Pro Se)
From: Mario Montano
You should contact the Court if you need further explanation.
*****This e-mail was sent from an unattended e-mail mailbox. Replies to this e-mail will be rejected.

*****

MiFILE is the Michigan judiciary's electronic-filing system for filing and serving documents online. This system is available 24 hours a day, 7 days a week.
Home page: https://mifile.courts.michigan.gov/
CONFIDENTIALITY NOTICE: This message and any associated documents have been sent via MiFILE and may contain confidential information. The information is intended for
individuals or legally defined interested persons associated with the case to which this message applies. Any individual not associated with the case is prohibited from
disseminating, distributing, or copying this message or any associated documents, downloading the associated documents, or taking any action on the contents of this message
or any associated documents. If you have received this communication in error, please delete the message immediately. Thank you.

1

Appendix V

Order

Michigan Supreme Court
Lansing, Michigan

March 18, 2020

Bridget M. McCormack,
Chief Justice

David F. Viviano,
Chief Justice Pro Tcm

161121(37)
IVY ALICE WIMMER, f/k/a IVY ALICE
MONTANO,
Plaintiff-Appellee,
v
MARIO ALLAN MONTANO,
Defendant-Appellant.

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,
Justices

SC: 161121
COA: 351762
Oakland CC: 2012-802216-DO

On order of the Chief Justice, the motion of defendant-appellant to waive the filing
fees is GRANTED in this case only.

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
March 18, 2020

Appendix W

Home Cases, Opinions & Orders

Case Search
Case Docket Number Search Results - 353685
Appellate Docket Sheet
COA Case Number: 353685
MSC Case Number: 161645
IVY ALICE WIMMER V MARIO ALLAN MONTANO

l

WIMMER IVY ALICE

PL-AE

PRO

2

MONTANO MARIO ALLAN

DF-AT

PRO

COA Status: Case Concluded; File Archived
05/29/2020

MSC Status: Closed

1 App For Leave to.Appeal - Civil
Proof of Service Date: 05/29/2020
Register of Actions: Y
Answer Due: 06/19/2020
Fee Code: I
Filed By Pro Per

05/11/2020

2 Order Appealed From
From: OAKLAND CIRCUIT COURT
Case Number: 2012-802216-DO
Trial Court Judge: 69425 GANT KAMESHIA D
Nature of Case:
Civil Miscellaneous

05/29/2020

s^MotidnTWVaive F’ees
Proof of Service Date: 05/29/2020
For Party: 2 MONTANO MARIO ALLAN DF-AT
Fee Code: I
Answer Due: 06/05/2020

05/29/2020

5 Transcript Filed By Party
Date: 05/29/2020
Timely: Y
Reporter: 8970 - BACON LINDA M
Hearings:
09/04/2019
02/19/2020

06/02/2020

3 Correspondence Sent
For Party: 2 MONTANO MARIO ALLAN DF-AT
Comments: Letter advising that mail addressed to COA judges will not be accepted for filing. Further instances will be
rejected without notice.

06/09/2020

7 Submitted on Administrative Motion Docket
Event: 4 Waive Fees
District: T

06/09/2020

8 Order: Waive Fees - Deny
View document in PDF format
Event: 4 Waive Fees
Panel: ELG

1

Comments: $375 due 6/30
06/10/2020

9 Motion: Reconsideration of Order
Proof of Service Date: 06/10/2020
Filed By Pro Per
For Party: 2 MONTANO MARIO ALLAN DF-AT
Answer Due: 06/24/2020

06/15/2020

13 Other
Date: 06/14/2020
For Party: 2 MONTANO MARIO ALLAN DF-AT
Filed By Pro Per
Comments: notice of filing app in Sup Ct

06/16/2020

17 Submitted on Reconsideration Docket
Event: 9 Reconsideration of Order
District: T

06/16/2020

18 Order: Reconsideration - Deny - Appeal Remains Open
View document in PDF format
Event: 9 Reconsideration of Order
Panel: ELG
Comments: $375 due 6/30

2

07/14/2020

{6|/14/202p)

28 Submitted on Administrative Motion Docket
Event: 1 App For Leave to Appeal - Civil
District: T
29 Order: Dismissal - Administrative -^Filing Defect
View document in PDF format
Event: 1 App For Leave to Appeal - Civil
Panel: CMM
Amount: $750.00
Comments: DISMISSED for failure to pay fees- SANCTIONS ASSESSED- sanctions due 8/11

07/17/2020

30 Other
Date: 07/17/2020
For Party: 2 MONTANO MARIO ALLAN DF-AT
Filed By Pro Per
Comments: notice of filing app in Sup Court

\

3

Appendix X

Home - Cases, Opinions & Orders-"

Case Search
Case Docket Number Search Results - 353753
Appellate Docket Sheet
COA Case Number: 353753
MSC Case Number: 161666
IVY ALICE WIMMER V MARIO ALLAN MONTANO

1

WIMMER IVY ALICE

PL-AE

PRO

2

MONTANO MARIO ALLAN

DF-AT

PRO

COA Status: Case Concluded; File Archived

MSC Status: Closed

Proof of Service Date: 06/05/2020
Register of Actions: Y
Answer Due: 06/26/2020
Filed By Pro Per
05/21/2020

2 Order Appealed From
From: OAKLAND CIRCUIT COURT
Case Number: 2012-802216-DO
Trial Court Judge: 69425 GANT KAMESHIA D
Nature of Case:
Civil Miscellaneous

05/21/2020

3 Order Appealed From
From: OAKLAND CIRCUIT COURT
Case Number: 2012-802216-DO
Trial Court Judge: 69425 GANT KAMESHIA D
Nature of Case:
Civil Miscellaneous

05/22/2020

4 Order Appealed From
From: OAKLAND CIRCUIT COURT
Case Number: 2012-802216-DO
Trial Court Judge: 69425 GANT KAMESHIA D
Nature of Case:
Civil Miscellaneous

li

’SlgeiF.ees;

Proof of Service Date: 06/05/2020
Filed By Pro Per
For Party: 2 MONTANO MARIO ALLAN DF-AT
Answer Due: 06/12/2020
06/05/2020

6 No Transcript Will Be Filed
Date: 06/05/2020
Comments: no hearings held

06/16/2020

9 Submitted on Administrative Motion Docket
Event: 5 Waive Fees
District: T

1

"06/16/2020; (lO Order: Waive Fees - Deny;
View document in PDF format
Event: 5 Waive Fees
Panel: ELG
Comments: $1125 due 7/7

06/16/2020

11 Correspondence Received
Date: 06/16/2020
For Party: 2 MONTANO MARIO ALLAN DF-AT
Filed By Pro Per
Comments: Notice of Filing Application to Supreme Court

:d

06/22/2020

19 Motion: Reconsideration of Order
Proof of Service Date: 06/22/2020
Filed By Pro Per
For Party: 2 MONTANO MARIO ALLAN DF-AT
Answer Due: 07/06/2020
Comments: of order denying waiver of fees-received on 6/20/20 on weekend-docketed next business day

06/23/2020

21 Submitted on Reconsideration Docket
Event: 19 Reconsideration of Order
District: T

06/23/2020

22 Order: Reconsideration - Deny - Appeal Remains Open
View document in PDF format
Event: 19 Reconsideration of Order
Panel: ELG
Comments: fees due 7/7

2

07/14/2020

31 Submitted on Administrative Motion Docket
Event: 1 App For Leave to Appeal - Civil
District: T

07/14/2020' !32 Order: Dismissal - Administrative - f iling Defect
View document in PDF format
Event: 1 App For Leave to Appeal - Civil
Panel: CMM
Amount: $750.00
Comments: DISMISSED for failure to pay fees- SANCTIONS ASSESSED- sanctions due 8/11

07/17/2020

33 Other
Date: 07/17/2020
For Party: 2 MONTANO MARIO ALLAN DF-AT
Filed By Pro Per
Comments: notice of filing app in supreme court

3

Appendix Y

Home Cases, Opinions & Orders

Case Search
Case Docket Number Search Results - 353820
Appellate Docket Sheet
COA Case Number: 353820
MSC Case Number: 161668
IAW V MAM

1

IAW

PT-AE

PRO

2

MAM

RS-AT

PRO

COA Status: Case Concluded; File Archived
MSC Status: Closed
06/15/2020 (I App For Leave to Appeal - Civil
Proof of Service Date: 06/15/2020
Register of Actions: Y
Answer Due: 07/06/2020
Filed By Pro Per
05/11/2020

2 Order Appealed From
From: OAKLAND CIRCUIT COURT
Case Number: 2017-854298-PP
Trial Court Judge: 69425 GANT KAMESHIA D
Nature of Case:
PPO

06/15/2020

3 No Transcript Will Be Filed
Date: 06/15/2020

06/15/2020

(4 Motion:WaiveFeef
Proof of Service Date: 06/15/2020
Filed By Pro Per
For Party: 2 MAM RS-AT
Answer Due: 06/22/2020

06/15/2020

6 Motion: Motion
Proof of Service Date: 06/15/2020
Filed By Pro Per
For Party: 2 MAM RS-AT
Answer Due: 06/22/2020
Comments: Motion for Change of Venue - motion withdrawn - see event 16

06/16/2020

7 Submitted on Administrative Motion Docket
Event: 4 Waive Fees
District: T

06/16/2020

8 Order: Waive Feels - Deny
View document in PDF format
Event: 4 Waive Fees
Panel: ELG
Comments: $375 due 7/7

06/16/2020

9 Correspondence Received
Date: 06/16/2020

1

For Party: 2 MAM RS-AT
Filed By Pro Per
Comments: motion for immediate consideration withdrawn
06/16/2020

10 Other
Date: 06/16/2020
For Party: 2 MAM RS-AT
Filed By Pro Per
Comments: notice of application with Michigan Supreme Court

ration

ate

0
06/17/2020

16 Correspondence Received
Date: 06/17/2020
For Party: 2 MAM RS-AT
Filed By Pro Per
Comments: motion for change of venue withdrawn

06/22/2020

18 Motion: Reconsideration of Order
Proof of Service Date: 06/22/2020
Filed By Pro Per
For Party: 2 MAM RS-AT
Answer Due: 07/06/2020
Comments: of order denying waiver of fees-received on 6/21 on weekend-docketed next business day

06/23/2020

20 Submitted on Reconsideration Docket
Event: 18 Reconsideration of Order
District: T

06/23/2020

21 Order: Reconsideration - Deny - Appeal Remains Open
View document in PDF format
Event: 18 Reconsideration of Order
Panel: ELG
Comments: fees due 7/7

2

Filed by Pro Per
Comments: Docketed without fees, if MSC denies fee waiver (event 12), DFAT will be invoiced for $75.00 motion fee

07/14/2020

30 Submitted on Administrative Motion Docket
Event: 1 App For Leave to Appeal - Civil
District: T

■07/14/2020

(31 Order; Dtemlssat - Administrative - Filingjfefe&)
View document in PDF format
Event: 1 App For Leave to Appeal - Civil
Panel: CMM
Amount: $750.00
Comments: DISMISSED for failure to pay fees- SANCTIONS ASSESSED- sanctions due 8/11

07/17/2020

32 Other
Date: 07/17/2020
For Party: 2 MAM RS-AT
Filed By Pro Per
Comments: notice of filing app in Sup Court

3

Appendix Z

Home Cases, Opinions & Orders ,

Case Search
Case Docket Number Search Results -161466
Appellate Docket Sheet
COA Case Number: 353685
MSC Case Number: 161645
IVY ALICE WIMMER V MARIO ALLAN MONTANO

1

WIMMER IVY ALICE

PL-AE

PRO

2

MONTANO MARIO ALLAN

DF-AT

PRO

COA Status: Case Concluded; File Archived

MSC Status: Closed

1

yQfi/l$/2026) ®0fCt:„Inter Application)
Supreme Court No: 161466
Answer Due: 07/13/2020
Fee: Indigent Person
For Party: 2
Filed By Pro Per
Comments: Docketed without fees to determine DFAT's entitlement to fee waiver. If MSC denies entitlement, DFAT will
be invoiced for application and motion fees ($525).

(06/|57202li (li SCt Motion: Waive‘^es
Party: 2
Filed by Pro Per

06/15/2020

12 SCt Motion: Immediate Consideration
Party: 2
Filed by Pro Per

06/17/2020

19 SCt Correspondence Received
Proof Of Service Date: 06/17/2020
Filed By Pro Per
Comments: Correspondence requesting to withdraw motion for immediate consideration of motion to waive fees

06/24/2020

20 SCt Motion: Dismiss
Party: 2
Filed by Pro Per
Comments: Docketed without fees; if MSC denies fee waiver (event 11), DFAT will be invoiced for $75.00 motion fee

06/25/2020

21 SCt: Miscellaneous Filing
Filing Date: 06/25/2020
For Party: 2 MONTANO MARIO ALLAN DF-AT
Filed By Pro Per
Comments: includes Withdrawal of Application

06/25/2020

22 SCt: Miscellaneous Filing
Filing Date: 06/25/2020
For Party: 2 MONTANO MARIO ALLAN DF-AT
Filed By Pro Per

06/29/2020

23 SCt: Miscellaneous Filing

2

Filing Date: 06/29/2020
For Party: 2 MONTANO MARIO ALLAN DF-AT
Filed By Pro Per
Comments: Notice of withdrawing motion to dismiss

07/08/2020

24 SCt: Miscellaneous Filing
Filing Date: 07/08/2020
For Party: 2 MONTANO MARIO ALLAN DF-AT
Filed By Pro Per
Comments: Correspondence re rescinding intended dismissal of case.

07/09/2020

25 SCt: Miscellaneous Filing
Filing Date: 07/09/2020
For Party: 2 MONTANO MARIO ALLAN DF-AT
Filed By Pro Per
Comments: Notice of Filing Withdrawal.

07/17/2020

31 SCt: Application for Leave to SCt)
Supreme Court No: 161645
Answer Due: 08/14/2020
Fee: Invoiced
For Party: 2
Filed By Pro Per
(Comments:'Feetimporirfly^^forlteOguttto

07/20/2020

'/fsHiiii^^iveij

32 SCt Motion: Stay
Party: 2
Filed by Pro Per
Comments: Fee temporarily waived pending decision on motion to waive fees

07/27/2020

33 SCt Motion: Dismiss
Party: 2
Filed by Pro Per
Comments: 161466 - Fee temporarily waived pending decision on motion to waive fees

07/28/2020

34 SCt: Miscellaneous Filing
Filing Date: 07/28/2020
For Party: 2 MONTANO MARIO ALLAN DF-AT
Filed By Pro Per
Comments: "Notice of Ex Parte Order for Entry Pursuant to MCR 7.305(1) and MCR 7.209(1)"; order included

08/04/2020

35 SCt Motion: Miscellaneous
Party: 2
Filed by Pro Per

3

Comments: Motion to amend application; amended app included. Fees temporarily waived pending decision on motion
to waive fees.
08/04/2020

36 SCt: Miscellaneous Filing
Filing Date: 08/04/2020
For Party: 2 MONTANO MARIO ALLAN DF-AT
Filed By Pro Per
Comments: Trial court transcript

08/05/2020

37 SCt Motion: Consolidate
Party: 2
Filed by Pro Per
Comments: Motion to consolidate 161666 with 161645

08/10/2020

38 SCt Motion: Stay
Party: 2
Filed by Pro Per
Comments: Motion for immediate stay order; fee temporarily waived pending decision on motion to waive fees

08/12/2020

39 SCt Motion: Immediate Consideration
Party: 2
Filed by Pro Per
Comments: Motion for immediate consideration of motion for stay; fee temporarily waived pending decision on motion
to waive fees

08/20/2020

40 SCt: Trial Court Record Received
1 files

08/25/2020

42 SCt: Miscellaneous Filing
Filing Date: 08/25/2020
For Patty: 2 MONTANO MARIO ALLAN DF-AT
Filed By Pro Per
Comments: "Acknowledgment Regarding this Court Granting the Amended Application for Leave to Appeal"

09/02/2020

43 SCt: Trial Court Record Received
1 files

09/08/2020

44 SCt Correspondence Received
Proof Of Service Date: 09/08/2020
Filed By Pro Per
Comments: AT intends to file complaint with Ct of Claims if MSC rejects mtns filed wo fees; motion rejected

09/10/2020

45 SCt Correspondence Received
Proof Of Service Date: 09/10/2020
Filed By Pro Per

09/16/2020

46 SCt: Miscellaneous Filing
Filing Date: 09/16/2020
For Party: 2 MONTANO MARIO ALLAN DF-AT
Filed By Pro Per
Comments: Notices - withdrawing filings

09/30/2020

47 SCt: Miscellaneous Filing
Filing Date: 09/30/2020
For Party: 2 MONTANO MARIO ALLAN DF-AT
Filed By Pro Per
Comments: Correspondence related to MSC 161299.

10/01/2020

48 SCt: Miscellaneous Filing
Filing Date: 10/01/2020
For Party: 2 MONTANO MARIO ALLAN DF-AT
Filed By Pro Per
Comments: Correspondence related to MSC 161152.

4

10/05/2020

49 SCt Order: Close/Fail Pay Fees
View document in PDF format
Comments: MSC Nos. 161466 & 161645 are administratively closed for failure to pay fees. Clerk shall not accept filings
from AT in any civil matter until sanctions ordered in Nos. 161152 & 161299 are fully paid. Clerical correction to say
DFAT not PLAT.

10/26/2020

51 SCt Correspondence Received
Proof Of Service Date: 10/26/2020
Filed By Pro Per
Comments: Notice of filing stay of execution with SCOTUS

12/07/2020

52 SCt Correspondence Received
Proof Of Service Date: 12/07/2020
Comments: SCOTUS notice of petition for writ of cert being filed (SCOTUS No. 20-6489).

12/17/2020

56 File Closed-Out
File Location: F

Case Listing Complete

5

Appendix AA

Home Cases, Opinions & Orders

Case Search
Case Docket Number Search Results -161471
Appellate Docket Sheet
COA Case Number: 353753
MSC Case Number: 161666
IVY ALICE WIMMER V MARIO ALLAN MONTANO

1

WIMMER IVY ALICE

PL-AE

PRO

2

MONTANO MARIO ALLAN

DF-AT

PRO

COA Status: Case Concluded; File Archived

MSC Status: Closed

1

06/16/2020

(12 SCt: Inter Application
Supreme Court No: 161471
Answer Due: 07/14/2020
For Party: 2
Filed By Pro Per
Comments Docketed without fees to determine DFAT's enfatlWntloTiil»|SK^^
•be invoiced for application.and motion fees ($600.00).

!06/16/2020;

(l3 SCt.Motlon:_ WalveSpee^
Party: 2
Filed by Pro Per

06/16/2020

14 SCt Motion: Immediate Consideration
Party: 2
Filed by Pro Per

06/16/2020

15 SCt Motion: Consolidate
Party: 2
Filed by Pro Per

06/16/2020

16 SCt Case Caption
Proof Of Service Date: 06/16/2020

06/17/2020

17 SCt Correspondence Received
Proof Of Service Date: 06/17/2020
Filed By Pro Per
Comments: Correspondence requesting to withdraw motion for immediate consideration of motion to waive fees

06/17/2020

18 SCt Correspondence Received
Proof Of Service Date: 06/17/2020
Filed By Pro Per
Comments: Correspondence re filing proof of service; response attached

2

ie

06/25/2020

25 SCt: Miscellaneous Filing
Filing Date: 06/25/2020
For Party: 2 MONTANO MARIO ALLAN DF-AT
Filed By Pro Per
Comments: Withdrawal of Application

06/29/2020

26 SCt: Miscellaneous Filing
Filing Date: 06/29/2020
For Party: 2 MONTANO MARIO ALLAN DF-AT
Filed By Pro Per
Comments: Notice of withdrawing motion to dismiss

07/08/2020

27 SCt: Miscellaneous Filing
Filing Date: 07/08/2020
For Party: 2 MONTANO MARIO ALLAN DF-AT
Filed By Pro Per
Comments: Letter re rescinding intended dismissal of case.

07/09/2020

28 SCt: Miscellaneous Filing
Filing Date: 07/09/2020
For Party: 2 MONTANO MARIO ALLAN DF-AT
Filed By Pro Per
Comments: Notice of Filing Withdrawal.

07/20/2020

:34 SCt: Application for Leave to SCt
Supreme Court No: 161666
Answer Due: 08/17/2020
Fee: Invoiced
For Party: 2
Filed By Pro Per
Comments: Filing' fee temporarily waived to determine AT's eligibility. Will be invoiced for all fees if not eligible.
Interlocutory application in MSC No. 161471.

07/20/2020

35 SCt Motion: Stay
Party: 2
Filed by Pro Per
Comments: Fee temporarily waived pending decision on motion to waive fees

07/27/2020

36 SCt Motion: Dismiss
Party: 2
Filed by Pro Per

3

Comments: 161471 - Fee temporarily waived pending decision on motion to waive fees
07/28/2020

37 SCt: Miscellaneous Filing
Filing Date: 07/28/2020
For Party: 2 MONTANO MARIO ALLAN DF-AT
Filed By Pro Per
Comments: "Notice of Ex Parte Order for Entry Pursuant to MCR 7.305(1) and MCR 7.209(1)"; order included

08/05/2020

38 SCt Motion: Miscellaneous
Party: 2
Filed by Pro Per
Comments: Motion to amend application; amended app included. Fee temporarily waived pending decision on motion
to waive fees.

08/10/2020

39 SCt Motion: Stay
Party: 2
Filed by Pro Per
Comments: Motion for immediate stay order; fee temporarily waived pending decision on motion to waive fees.

08/12/2020

40 SCt Motion: Immediate Consideration
Party: 2
Filed by Pro Per
Comments: Motion for immediate consideration of motion for stay; fee temporarily waived pending decision on motion
to waive fees

09/16/2020

41 SCt: Miscellaneous Filing
Filing Date: 09/16/2020
For Party: 2 MONTANO MARIO ALLAN DF-AT
Filed By Pro Per
Comments: Notices - withdraw filings

09/30/2020

42 SCt: Miscellaneous Filing
Filing Date: 09/30/2020
For Party: 2 MONTANO MARIO ALLAN DF-AT
Filed By Pro Per
Comments: Letter, allegations, and request to Clerk's Office

10/05/2020

.43 SCt Order; Close/Fail Pay Fees
View document in PDF format
Comments: MSC Nos. 161471 & 161666 are administratively closed for failure to pay fees. Clerk shall not accept filings
from AT in any civil matter until sanctions ordered in Nos. 161152 & 161299 are fully paid. Clerical correction to say
DFAT not PLAT.

10/24/2020

44 SCt Correspondence Received
Proof Of Service Date: 10/24/2020
Filed By Pro Per
Comments: Notice of filing stay of execution with SCOTUS

12/07/2020

45 SCt Correspondence Received
Proof Of Service Date: 12/07/2020
Comments: SCOTUS notice of petition for writ of cert being filed (SCOTUS No. 20-6489).

12/17/2020

49 File Closed-Out
File Location: F

Case Listing Complete

4

Appendix BB

Home Cases, Opinions & Orders

Case Search
Case Docket Number Search Results - 161473
Appellate Docket Sheet
COA Case Number: 353820
MSC Case Number: 161668
IAW V MAM

1

IAW

PT-AE

PRO

2

MAM

RS-AT

PRO

COA Status: Case Concluded; File Archived

MSC Status: Closed
il

/

1

06/16/2020

:lTSQT"ii^r_A^|iiiratiorft
Supreme Court No: 161473
Answer Due: 07/14/2020
For Party: 2
Filed By Pro Per
■Comments: Docketed without fees to determine DFAT's entitlement to fee waiver. If MSC denies fee waiver, DFAT will
be invoiced for application and motion fees ($600.00)

06/16/2020

12 SCt Motion: Waive Fees
Party: 2
Filed by Pro Per

06/16/2020

13 SCt Motion: Immediate Consideration
Party: 2
Filed by Pro Per

06/16/2020

14 SCt Motion: Consolidate
Party: 2
Filed by Pro Per

06/16/2020

15 SCt Case Caption
Proof Of Service Date: 06/16/2020

06/17/2020

17 SCt Correspondence Received
Proof Of Service Date: 06/17/2020
Filed By Pro Per
Comments: Correspondence requesting to withdraw motion for immediate consideration of motion to waive fees

n

06/24/2020

22 SCt Motion: Dismiss
Party: 2

2

Filed by Pro Per
Comments: Docketed without fees, if MSC denies fee waiver (event 12), DFAT will be invoiced for $75.00 motion fee
06/25/2020

24 SCt: Miscellaneous Filing
Filing Date: 06/25/2020
For Party: 2 MAM RS-AT
Filed By Pro Per
Comments: Withdrawal of Application

06/29/2020

25 SCt: Miscellaneous Filing
Filing Date: 06/29/2020
For Party: 2 MAM RS-AT
Filed By Pro Per
Comments: Notice of withdrawing motion to dismiss

07/08/2020

26 SCt: Miscellaneous Filing
Filing Date: 07/08/2020
For Party: 2 MAM RS-AT
Filed By Pro Per
Comments: Letter re rescinding intended dismissal of case.

07/09/2020

27 SCt: Miscellaneous Filing
Filing Date: 07/09/2020
For Party: 2 MAM RS-AT
Filed By Pro Per
Comments: Notice of Filing Withdrawal.

07/17/2020

'33 SCt: Application for Leave to SCt/
Supreme Court No: 161668
Answer Due: 08/14/2020
Fee: Invoiced
For Party: 2
Filed By Pro Per
Comments: Filing fee temporarily waivedto determine" APs eligibility. Will belnvolced for all fees if not eligible.!
interlocutory application in MSC No. 161473.

07/20/2020

34 SCt Motion: Stay
Party: 2
Filed by Pro Per

07/27/2020

35 SCt Motion: Dismiss
Party: 2
Filed by Pro Per
Comments: 161473 - Fee temporarily waived pending decision on motion to waive fees

07/28/2020

36 SCt: Miscellaneous Filing

3

Filing Date: 07/28/2020
For Party: 2 MAM RS-AT
Filed By Pro Per
Comments: "Notice of Ex Parte Order for Entry Pursuant to MCR 7.305(1) and MCR 7.209(1)"; order included - 161668

08/07/2020

38 SCt Motion: Miscellaneous
Party: 2
Filed by Pro Per
Comments: Motion to amend app and interlocutory app; fee temporarily waived pending decision on motion to waive
fees; amended app included

08/10/2020

39 SCt Motion: Stay
Party: 2
Filed by Pro Per
Comments: Motion for immediate stay order; fee temporarily waived pending decision on motion to waive fees

08/12/2020

40 SCt Motion: Immediate Consideration
Party: 2
Filed by Pro Per
Comments: Motion for immediate consideration of motion for stay; fee temporarily waived pending decision on motion
to waive fees

09/16/2020

41 SCt: Miscellaneous Filing
Filing Date: 09/16/2020
For Party: 2 MAM RS-AT
Filed By Pro Per
Comments: Notices - withdraw filings

10/05/2020

42 SCt Order: Close/Fail Pay Fees
View document in PDF format
Comments: MSC Nos. 161473 & 161668 are administratively closed for failure to pay fees. Clerk shall not accept filings
from AT in any civil matter until sanctions ordered in Nos. 161152 & 161299 are fully paid. Clerical correction to say
DFAT not PLAT.

10/26/2020

43 SCt: Miscellaneous Filing
Filing Date: 10/26/2020
For Party: 2 MAM RS-AT
Filed By Pro Per
Comments: Notice of filing stay of execution with SCOTUS

12/07/2020

44 SCt Correspondence Received
Proof Of Service Date: 12/07/2020
Comments: SCOTUS notice of petition for writ of cert being filed (SCOTUS No. 20-6489).

12/17/2020

47 File Closed-Out
File Location: F

Case Listing Complete

4

